     Department of Homeland Security

     ��������������������������



        U.S. Customs and Border Protection’s 

        Advanced Training Center Acquisition 





OIG-14-47                               February 2014

                         OfFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



                                February 28, 2014

MEMORANDUM FOR:              The Honorable Thomas S. Winkowski
                             Deputy Commissioner
                             Performing the duties of the Commissioner of CBP
                             U.S. Customs and, ~order Protection
                         (\       QlQW-_c,._.
FROM:                    '--tarlton 1. Mann
                             Chief Operating Officer

SUBJECT:                     U.S. Customs and Border Protection's Advanced Training
                             Center Acquisition

Attached for your action is ourfinal report, U.S. Customs and Border Protection's
Advanced Training Center Acquisition. We incorporated the formal comments from U.S.
Customs and Border Protection (CBP) in the final report.

The report contains three recommendations aimed at improving CBP's ability to oversee
and manage the performance and accountability of its Economy Act service providers.
Your office concurred with all three recommendations. Based on information provided
in your response to the draft report, we consider the recommendations open and
unresolved. As prescribed by the Department of Homeland Security Directive 077·01,
Follow-Up and Resolutions for Office of Inspector General Report Recommendations,
within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan,
and (3) target completion date for each recommendation. Also, please include
responsible parties and any other supporting documentation necessary to inform us
about the current status of the recommendation.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov. Until your response is received and evaluated, the
recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Acting Assistant
Inspector General for Audits, at (202)254·4100.

Attachment
                                   OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security
                                                                      

Table of Contents


Executive Summary ............................................................................................................ 1 



Background ........................................................................................................................ 2 



Results of Audit ................................................................................................................... 3 



       CBP Oversight of the Advanced Training Center Acquisition ................................. 3 

       Reimbursable Work Authorizations ....................................................................... 8 

       Recommendations ............................................................................................... 10 

       Management Comments and OIG Analysis ......................................................... 11 

        

Appendixes
           

           Appendix A: Objectives, Scope, and Methodology .............................................. 17 

           Appendix B: Management Comments to the Draft Report ................................. 19 

           Appendix C: Advanced Training Center’s Phases and Development ................... 26 

           Appendix D: Reimbursable Work Authorization Example ................................... 27 

           Appendix E: Major Contributors to This Report .................................................. 28 

           Appendix F: Report Distribution .......................................................................... 29                   


Abbreviations
           ATC                   Advanced Training Center
           CBP                   U.S. Customs and Border Protection
           DHS                   Department of Homeland Security
           FM&E                  Facilities Management & Engineering Directorate
           GSA                   U.S. General Services Administration
           IAA                   Interagency Agreement
           IGCE                  Independent Government Cost Estimate
           OIG                   Office of Inspector General
           RWA                   Reimbursable Work Authorization
           U.S.                  United States 

           USACE                 U.S. Army Corps of Engineers 





www.oig.dhs.gov                                                                                                          OIG-14-47 

                       OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Executive Summary
U.S. Customs and Border Protection (CBP) is responsible for regulating and facilitating
international trade, collecting import duties, and enforcing regulations, including those
related to trade, customs, and immigration. CBP’s Advanced Training Center in Harpers
Ferry, West Virginia, provides advanced law enforcement training to CBP personnel. We
performed this audit to determine whether CBP provided effective oversight and
managed the fourth phase of the Advanced Training Center acquisition in accordance
with Federal, departmental, and Component requirements.

CBP did not effectively oversee and manage the fourth phase of the Advanced Training
Center acquisition. The $55.7 million Interagency Agreement between CBP and its
Economy Act service provider, the U.S. Army Corps of Engineers, was not developed and
executed according to Federal, departmental, and Component requirements. Key
documentation supporting an Interagency Agreement with the service provider was
either missing or incomplete. CBP did not develop, review, or approve a required
Independent Government Cost Estimate and Acquisition Plan prior to entering into the
Interagency Agreement. CBP also approved millions of dollars worth of contract
modifications to the Interagency Agreement without first ensuring the need and
reasonableness of the modifications. As a result, CBP could not—

   •	 Adequately justify its decision to use a service provider rather than in-house CBP
      personnel to manage the Advanced Training Center acquisition;
   •	 Produce a plan for managing and overseeing the service provider’s day-to-day
      performance; and
   •	 Adequately justify millions of dollars worth of labor and construction funding.

CBP also used Reimbursable Work Authorizations, rather than the Advanced Training
Center Interagency Agreement, to execute construction project agreements with its
service provider, contrary to statutory, regulatory, departmental, and Component
requirements. As a result, key controls governing the use of Interagency Agreements
were bypassed, and Advanced Training Center construction funding was transferred to
the U. S. Army Corps of Engineers without the review and approval of agency
procurement officials. We also determined that CBP’s use of Reimbursable Work
Authorizations for construction projects and for other unauthorized purposes was a
longstanding practice that extended beyond the Advanced Training Center acquisition.

CBP concurred with all three recommendations to enhance CBP’s ability to oversee and
manage the performance and accountability of its Economy Act service providers.
Written comments to the draft report have been incorporated as appropriate and are
included in appendix B.


www.oig.dhs.gov                             1	                                   OIG-14-47

                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Background
In the Department of Homeland Security (DHS), CBP is responsible for protecting the
nation’s borders from terrorism, human and drug smuggling, illegal migration, and
agricultural pests. CBP’s mission also includes regulating and facilitating international
trade, collecting import duties, and enforcing regulations, including those related to
trade, customs, and immigration. Its mission is carried out at 329 ports-of-entry along
nearly 7,000 miles of United States (U.S.) border.

The Advanced Training Center (ATC) at Harpers Ferry, West Virginia, is being
constructed to provide CBP officers with the training they need to perform their
mission. When completed, the ATC will include tactical, academic, residential, and
supporting infrastructure.

CBP planned the design and construction of the ATC campus to be phased in over
several years. The first through third phases of the project are complete. The fourth and
fifth phases were merged into a fourth phase (Phase IV) to include a shower/locker
room facility, contractor maintenance facility, dining facility, welcome and security
center, and dormitory and conference center. Our review focused on CBP’s execution of
Phase IV of the acquisition. Appendix C contains a breakdown of buildings and
supporting infrastructure for each phase of the ATC acquisition.

The EconomyfActfoff1932, as amended (Economy Act) authorizes Federal agencies
to enter into agreements with other agencies to obtain goods and services once
the requesting agency has determined that such agreements are needed and in the
best interest of the Government. For the ATC acquisition, CBP entered into two
Interagency Agreements (IAAs) with an Economy Act service provider, the U.S.
Army Corps of Engineers (USACE), to oversee the construction of Phase IV of the
ATC acquisition. 1 The first IAA (valued at $1 million) was used to contractually secure
USACE’s assistance in evaluating the design of ATC facilities to be constructed during
Phase IV of the ATC acquisition. The second IAA (valued at $55.7 million) was used to
contractually secure USACE’s assistance in overseeing construction of all Phase IV
facilities. USACE services included procurement, contract administration,
project/construction management, and project expense reporting.




1
  An IAA is a written agreement between a Federal agency or a component of a Federal agency and a
government provider (service provider) used to acquire supplies or services, as authorized by statute.
(DHS Directive 125-02, InteragencyfAgreements)



    www.oig.dhs.gov                                 2                                           OIG-14-47

                       OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Results of Audit
CBP did not effectively oversee and manage Phase IV of the ATC acquisition. The $55.7
million IAA between CBP and its Economy Act service provider, USACE, was not
developed and executed in accordance with Federal, departmental, and Component
requirements. Specifically, required documentation to support the IAA was either
missing or incomplete. CBP did not develop, review, or approve an Independent
Government Cost Estimate (IGCE) or Acquisition Plan prior to entering into the IAA with
USACE. CBP was also unable to provide documentation supporting its decision to
approve modifications to the IAA. As a result, CBP could not—
   •	 Adequately justify its decision to use an Economy Act service provider rather
      than in-house CBP personnel, including contractor staff, to manage the ATC
      acquisition;
   •	 Produce a plan for managing and overseeing USACE’s day-to-day performance;
      and
   •	 Adequately justify millions of dollars worth of labor and construction funding.

CBP also used Reimbursable Work Authorizations (RWAs), rather than the ATC IAA, to
transfer funds to USACE for construction projects, contrary to statutory, regulatory,
departmental, and Component requirements. As a result, key controls governing the use
of IAAs were bypassed, and ATC construction funding was obligated and transferred to
USACE without the review and approval of agency procurement officials. Additionally,
CBP used RWAs for construction projects and for other unauthorized purposes that
extended beyond the Advanced Training Center acquisition.

       CBP Oversight of the Advanced Training Center Acquisition

       CBP did not adequately oversee the development and execution of the $55.7
       million IAA with USACE, the service provider responsible for managing Phase IV
       of the ATC acquisition. Key documentation that described its evaluation of
       service provider costs was not completed. CBP also did not develop an
       Acquisition Plan that specified the policies, processes, and internal controls it
       would use to oversee the day-to-day execution of the ATC acquisition. As a
       result, CBP was unable to oversee and manage the execution of the acquisition
       effectively. CBP procurement officials also approved millions of dollars worth of
       IAA contract modifications for labor cost increases and add-ons to the dormitory
       and conference center without the required supporting documentation.




 www.oig.dhs.gov                           3	                                   OIG-14-47

                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


         Independent Government Cost Estimate

         Departmental regulations require an approved IGCE prior to entering into an
         IAA. IGCEs aid the Government in determining whether using Economy Act
         service providers rather than in-house resources, including contractor staff, to
         manage a given project is in the best interest of the Government. An IGCE
         developed for an Economy Act construction project typically includes a
         breakdown of projected service provider and in-house costs. For example, IGCEs
         for acquisitions include the following cost elements:

             •	 Numbers and classifications of service provider employees and in-house
                employees required to complete the job;
             •	 Wage rates for all classes of service provider and in-house employees;
             •	 Service provider and agency direct and indirect costs; and
             •	 A service provider fee schedule.

         CBP is required to use the IGCE to help determine whether the use of a service
         provider in lieu of in-house CBP personnel is in the best interest of the
         Government.2 At CBP, the Office of Administration is responsible for developing
         and approving the IGCE prior to IAA issuance.

         CBP did not develop or approve an IGCE containing a breakdown of service
         provider and in-house costs prior to its issuance of the ATC IAA. As a result, CBP
         officials were unable to perform the required cost-price analysis of the two
         alternatives. They also could not demonstrate that their decision to use a service
         provider rather than in-house CBP personnel to manage the ATC acquisition was
         in the best interest of the Government. CBP officials could not explain why they
         did not use an IGCE to determine whether their decision to use a service
         provider was in the Government’s best interest.

         Acquisition Plan

         Federal and departmental regulations require that all projects exceeding $10
         million have an Acquisition Plan prior to contract issuance. For the ATC
         acquisition, the Acquisition Plan would have provided CBP management with a
         methodology to oversee and assess USACE’s management of ATC construction


2
 According to CBP Standard Operating ProcedurefPD-2010-33,fR1,fthe IGCE is the basis for cost or price
analysis of proposals, contract-related costs, budgeting, and the Contracting Officer’s determination for
price reasonableness.



    www.oig.dhs.gov                                  4	                                          OIG-14-47

                              OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           on a day-to-day basis over the course of the IAA. Economy Act Acquisition Plans
           include the following oversight elements:

                •	 The requesting agency’s and service provider’s roles and responsibilities;
                •	 A project budget that includes estimates of all project funding
                   requirements;
                •	 A mutually agreed-upon project construction schedule with milestone
                   dates;
                •	 Service provider reporting and documentation requirements; and
                •	 A process for arbitrating requesting agency and service provider cost,
                   schedule, and performance issues.

           Acquisition Plans also provide continuity when there is turnover in project
           management personnel. CBP’s Office of Administration was responsible for
           developing, approving, and executing the ATC Acquisition Plan.

           CBP did not develop and approve an Acquisition Plan to support its expenditure
           of $55.7 million for Phase IV of the ATC acquisition. The absence of a detailed
           Acquisition Plan hindered CBP’s ability to identify and address cost, schedule,
           and performance issues that arose early in the acquisition. Without mutually
           agreed-upon project milestones for each of the planned buildings, it was difficult
           for CBP to hold USACE and its contractors accountable for interim construction
           delays and cost increases associated with these delays. CBP officials said that
           they had been aware of the requirement to develop and approve an Acquisition
           Plan prior to IAA issuance, but could not explain why it had not been completed
           as required other than characterizing it as a lapse in oversight by CBP
           management.

           None of the five buildings to be constructed under the ATC IAA was completed
           within planned cost, schedule, and performance requirements. Three of the five
           buildings were completed about 10 months after the target completion date,
           and as of July 30, 2013, none was being used for its intended purpose.3 These
           delays resulted in increased labor costs, which contributed significantly to the
           $2.5 million (16.2 percent) in project cost overruns. Construction of the fourth
           building (contractor maintenance facility) was cancelled because of agency
           funding constraints. Construction of the fifth and largest building (dormitory and
           conference center) was delayed for more than 3 years because of legal issues
           unrelated to CBP oversight. Table 1 shows a breakdown of Phase IV construction
           costs and timelines.


3
    Shower and locker room facility, dining facility, and welcome/security center.


    www.oig.dhs.gov                                    5	                             OIG-14-47

                                    OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table 1. ATC Construction Costs and Timelines 

                                                                                                 Target       Actual
                                                 Planned          Actual           %
          Construction Costs*                                                                  Completion   Completion
                                                (millions)       (millions)      Change
                                                                                                  Date         Date
     • Shower/Locker Room
     • Dining Hall                                                                                January   November
                                                   $15.4           $17.9          16.2%
     • Welcome/Security                                                                            2012       2012
       Center
     • Contractor Maintenance
                                                   $0.99           $0.00           N/A          July 2013   Cancelled
       Facility**
     • Dormitory and
                                                   $33.4              TBD          N/A          July 2013   Postponed
       Conference Center***
    Source:fOffice
            ff
                   of Inspector General (OIG) analysis of ATC contract filesf
       *The ATC IAA did not require USACE to track costs on a building-by-building basis.

     **Building cancelled due to lack of funding. 

    ***Construction postponed because of legal issues associated with an ongoing contractor protest. 



             The original ATC IAA included a service provider fee of $3.3 million for the
             construction of all five buildings valued at $55.7 million, which is a rate of 5.9
             percent. However, USACE charged CBP $2.9 million in service provider fees for
             the construction of three buildings costing $17.9 million. This resulted in a
             service provider fee rate of 16.2 percent, nearly three times greater than the
             original rate.

             IAA Contract Modifications

             According to the FederalfAcquisitionfRegulation, Contracting Officers have
             authority to enter into, administer, or terminate contracts and make related
             determinations and findings. Further, according to departmental guidance,
             Contracting Officers are responsible for executing all IAAs and for ensuring that
             all IAA contract modifications are evaluated for need and reasonableness, to
             make certain that the modifications are in the best interest of the Government.

             We identified $15.2 million in IAA contract modifications, of which $8 million
             (53 percent) was approved by CBP procurement officials without first ensuring
             the need and reasonableness of the modifications. For example, the ATC
             Contracting Officer4 approved a $3.2 million modification for contractor wage
             and salary increases absent a review and approval of supporting documentation.
             The Contracting Officer documented in the contract file that the need and
             reasonableness for the requested modifications could not be determined

4
    CBP Office of Administration Contracting Officer assigned to oversee the IAA between CBP and USACE.


     www.oig.dhs.gov                                              6                                           OIG-14-47

                            OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


         without more complete and accurate data, and that attempts to obtain the
         required information from CBP’s Facilities Management & Engineering
         Directorate (FM&E) were “met with resistance.” The Contracting Officer said
         that the modifications to the ATC IAA were approved to avoid any additional
         delays in the ATC acquisition.

         CBP’s Contracting Officer approved two other IAA contract modification line
         items without the required supporting documentation. These approvals
         bypassed key internal controls intended to ensure transparency and
         accountability in the contract modification process. As a result, CBP could not
         determine whether the modifications were accurate, justified, and in the best
         interest of the Government. Table 2 lists the ATC contract modifications that did
         not have the required supporting data and documentation.

         Table 2. ATC Contract Modifications without the Required Supporting Data and
         Documentation
f
f          Contract Modification Amount
                                                                           Purpose
f                    (millions)
f                       $3.2                                Davis-BaconfAct5-related wage increases
f                       $3.4                               Dormitory and Conference Center add-ons
f


         f              $1.4                                 USACE project management services
         f
                  Total $8.0
         f
         Source:fOIG analysis of ATC contract filesf

         The absence of an IGCE and an approved Acquisition Plan negatively affected
         CBP’s ability to evaluate the need for and oversee the day-to-day performance of
         the service provider. These discrepancies, coupled with CBP’s decision to
         approve IAA contract modifications without the required supporting
         documentation, increase the likelihood that the Component’s noncompliance
         with IAA requirements may be more widespread. To address these issues and
         improve the transparency and accountability of IAA agreements, CBP should
         implement policy, procedures, and controls to ensure future Component
         compliance with all IAA requirements.



5
 According to the Davis-BaconfAct, contractors and subcontractors must pay their laborers and
mechanics employed under the contract no less than the locally prevailing wages and fringe benefits for
corresponding work on similar projects in the area. Davis-BaconfAct requests must be accompanied by
supporting documentation and justification.




    www.oig.dhs.gov                                    7                                       OIG-14-47

                    OFFICE OF INSPECTOR GENERAL
                         Department of Homeland Security


     Reimbursable Work Authorizations


     CBP used RWAs, in lieu of the existing ATC IAA, to transfer funds for the ATC
     acquisition to USACE, contrary to statutory, regulatory, and agency
     requirements. Further, according to DHS OIG legal counsel, the RWAs were
     executed using U.S. General Services Administration (GSA) forms citing authority
     that did not apply to CBP. Because it used RWAs, CBP bypassed key internal
     controls governing the use of IAAs, and ATC Phase IV construction funding was
     improperly obligated and transferred to USACE. We also determined that CBP’s
     use of RWAs for construction projects and for other unauthorized purposes
     extends beyond the ATC acquisition.

     Regulatory, departmental, and Component guidance requires the use of IAAs for
     non-recurring Economy Act construction projects. Contracting Officers assigned
     to CBP’s Procurement Directorate are the only individuals authorized to approve
     and amend IAAs. They are also the only individuals with the statutory authority
     (warrant authority) to obligate and transfer funding between CBP and its
     Economy Act service providers. These requirements are intended to ensure that
     all Economy Act agreements are properly authorized and in the best interest of
     the Government.

     We identified three instances in which CBP used RWAs, rather than the ATC
     Phase IV IAA, to obligate and transfer construction funding to USACE.
     Specifically, the RWAs were developed and executed by officials in FM&E who
     did not have the requisite warrant authority. According to the ATC Contracting
     Officer, the decision to issue the RWAs was not vetted by CBP Procurement
     Directorate officials prior to issuance. According to DHS OIG legal counsel, the
     RWAs were also executed using GSA forms citing authority that did not apply to
     CBP. As a result, CBP bypassed key internal controls governing the use of IAAs,
     and $10.48 million in ATC construction funding was improperly obligated and
     transferred from CBP to USACE. Appendix D contains a copy of the July 24, 2012,
     RWA approved by FM&E officials authorizing the transfer of funds to USACE for
     unspecified and undocumented project labor costs associated with ATC
     construction. Table 3 contains a list of RWAs that FM&E officials issued between
     May 21, 2012, and August 20, 2012. The ATC Contracting Officer said that he was
     unaware of the existence of the three RWAs prior to their issuance.




www.oig.dhs.gov                          8                                   OIG-14-47

                        OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                                                        
       Table 3. RWAs for ATC Construction Issued by FM&E Officials between  
       May 21, 2012, and August 20, 2012  
        




                      FM&E                      RWA             Total           Description 
                Source   of RWA               Issuance       Obligations   
                                                 Date         (Millions) 
       S Mission Support  
       o                                     5/21/2012          $0.08           USACE Labor 
          Project Management Office
       u
       r Mission Support                     7/24/2012          $4.88           USACE Labor 
       c Project Management Office
       e Border Patrol Facilities and                                                 
       :  Tactical Infrastructure            8/20/2012          $5.52         ATC Construction 
          
       S
          Project Management Office                                                Funds 
       o                                              Total    $10.48        
       Source: OIG analysis of CBP’s ATC contract files 
        
       We determined that CBP’s use of RWAs to transfer construction funds between 
       agencies is a longstanding practice that extends beyond the ATC acquisition. Like 
       the ATC RWAs, these RWAs were issued by unauthorized individuals using GSA 
       forms and authorities that did not apply to CBP.    
        
       We conducted a review of 166 Economy Act construction projects for which 
       USACE was the service provider. These projects, which date back to April 5, 
       2007, used 514 RWAs valued at $2.2 billion. All 514 RWAs identified involved 
       unauthorized obligations and transfers of construction funding between CBP and 
       its Economy Act service providers. The RWAs were issued by unauthorized 
       individuals using GSA forms and authorities that did not apply to CBP. Further, 
       100 (19 percent) of the identified RWAs, valued at $69.7 million, were issued 
       following the January 18, 2012, issuance of CBP Directive 5320‐028D. According 
       to this directive, IAAs, signed by a Contracting Officer, are to be used for 
       Economy Act construction projects.  
        
       We also determined that CBP has been using RWAs for other unauthorized and 
       unsubstantiated purposes. Specifically, we identified instances in which RWAs 
       were used to: 
             Obligate and de‐obligate agency construction funding; 
             Modify Economy Act construction contracts; 
             Authorize the purchase of equipment and furniture; 
             Authorize the repair of CBP facilities and equipment; and 
             Authorize and extend service provider agreements with USACE. 
 
       CBP officials acknowledged that the unauthorized use of RWAs for Economy Act 


  www.oig.dhs.gov                             9                                      OIG‐14‐47 
                    OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


     construction projects dates back to the 1990s. They attributed the use to a
     number of circumstances and conditions, including:

         •	 Program officials’ belief that using RWAs in lieu of IAAs for Economy Act
            construction projects was legitimate and permissible;
         •	 The need to expedite execution of Economy Act construction projects;
         •	 Inadequate guidance on the proper use of RWAs at the Department,
            Component, and office levels;
         •	 The need to avoid construction delays caused by late payments to service
            providers and contractors; and
         •	 Ineffective communications between CBP’s Procurement Directorate and
            FM&E.

     According to CBP, actions are being taken to ensure future compliance with all
     Economy Act requirements, including:

         •	 Working with Component counsel to develop IAAs for all open, non-
            recurring Economy Act construction projects that used RWAs;
         •	 Developing and implementing policies to ensure CBP uses RWAs only for
            GSA building-related services that cannot be readily separated from
            standard operating costs and uses IAAs for all other facility-related
            construction services;
         •	 Filling a position for an internal auditor within FM&E; and
         •	 Initiating monthly meetings between CBP’s Procurement Directorate and
            FM&E.

     When fully implemented, these actions should significantly improve the
     transparency and accountability of future non-recurring Economy Act
     construction projects.

     Recommendations

     We recommend that the CBP Deputy Commissioner:

     Recommendation #1:

     Implement policies, procedures, and internal controls to increase management
     oversight and to ensure agency compliance with all statutory, regulatory,
     departmental, and Component requirements governing the development,
     review, execution, and use of Interagency Agreements.




www.oig.dhs.gov                         10                           	        OIG-14-47

                     OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


     Recommendation #2:

     Develop and implement policies, processes, and internal controls to ensure CBP
     compliance with all statutory, regulatory, departmental, and Component
     requirements governing the development, review, execution, and use of
     Reimbursable Work Authorizations.

     Recommendation #3:

     Develop and implement a plan to bring all outstanding Economy Act
     Reimbursable Work Authorizations into compliance with all statutory,
     regulatory, departmental, and Component requirements. The plan should
     include a detailed description of the actions to be taken; timelines, milestones,
     and progress reporting requirements; the identity of entities responsible for
     implementation; and any short- and long-term funding requirements.

     Management Comments and OIG Analysis

     In its December 12, 2013 response to the draft report, CBP concurred with the
     report recommendations, which if implemented will enhance CBP’s ability to
     oversee and manage the performance and accountability of its Economy Act
     service providers. CBP was unable to provide key documentation showing that
     its decision to enter into the IAA had been thoroughly analyzed, and that senior
     procurement officials reviewed and approved the results before entering into
     the agreement. Without such documentation, CBP was unable to demonstrate
     its May 2010 decision to use USACE rather than in-house personnel was in CBP’s
     and the Government’s best interest.

     CBP also agreed with OIG that an IAA, rather than RWAs, was the appropriate
     method to use for assisted acquisitions under the Economy Act. Thus, CBP has
     agreed to develop and implement corrective action plans to use IAAs, rather
     than RWAs, to fund existing and future acquisitions under the Economy Act.

     CBP concurred with all three of our recommendations, but took exception to
     OIG’s finding that it did not adequately justify its decision to use an Economy Act
     service provider to manage the ATC acquisition. OIG maintains its position that
     CBP did not adequately oversee the development and execution of the IAA with
     USACE. Our responses to CBP’s assertions follow:

     CBP Comment: According to OIG’s report, CBP did not “adequately justify its
     decision to use an Economy Act service provider rather than in-house CBP
     personnel, including contractor staff, to manage the ATC acquisition.” CBP


www.oig.dhs.gov                          11                                    OIG-14-47

                     OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


     disagrees with this statement. Based on the initial analysis performed in the
     course of awarding the IAAs for the ATC execution, as well as subsequent
     analysis performed when responsibility for internal oversight of the project
     was reassigned, CBP believes it adequately justified its decision to use an
     Economy Act provider.
     f
     OIG Response: The conclusions and recommendations included in the final
     report are the result of the analysis of information we obtained as of
     December 12, 2013. We stand by our assertion that the facts, findings, and
     recommendations contained in the report are accurate.

     CBP Comment: During the course of the audit, OIG had access to the
     complete file for both ATC IAAs, which included the Determination and
     Findings and Analysis of Alternative documents completed in the course of
     IAA development, as required under the Economy Act. The documents
     provide evidence CBP completed an appropriate level of analysis in
     determining that using USACE was in the best interest of the Government.
     The contract file also contained documentation of senior level CBP
     procurement officials’ awareness of the decision to support ATC
     construction requirements using USACE’s services.
     f
     OIG Response: CBP’s response does not mention that, contrary to statutory and
     regulatory requirements, an Acquisition Plan, Analysis of Alternatives, and the
     IGCE provided to OIG as evidence of due diligence were not signed and dated by
     senior CBP procurement officials or were incomplete. CBP’s response
     acknowledges the ATC IAA file included contract documentation which reflected
     CBP procurement officials’ awareness of the decision to support ATC
     construction requirements by the use of USACE services, which we determined
     to be incomplete. The fact CBP procurement officials did not resolve these
     discrepancies, supports our contention that CBP needs to increase the level and
     quality of management over the development, execution, and use of IAAs.

     CBP Comment: In June 2012, FM&E conducted a second analysis to
     determine which type of construction execution would be appropriate for
     the ATC project. The Program Management Office considered the following
     options: (1) continue ATC execution by USCAE; (2) select an alternate
     Federal service provider; or (3) complete construction using CBP in-house
     resources.

     On June 28, 2012, FM&E briefed the Office of Administration’s Assistant
     Commissioner on the three alternatives. The briefing considered both the
     opportunities and risks associated with each option. The Program


www.oig.dhs.gov                          12                                   OIG-14-47

                     OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


     Management Office concluded the plan requiring CBP to hire additional staff
     during a hiring pause would be challenging and high risk. FM&E
     recommended continuing execution through USACE; the Assistant
     Commissioner concurred with this recommendation.

     OIG Response: CBP does not mention that by June 2012, it was 21 months
     into a planned 15-month construction schedule and it was experiencing
     millions of dollars of IAA contract modifications, many of which were poorly
     documented or not documented at all. As a result, construction plans for
     buildings originally included in the ATC Master Plan had been scaled back,
     delayed, or cancelled (e.g., ATC dormitory/conference center and vehicle
     maintenance facilities). Given these circumstances, any decision by senior
     CBP officials to change service providers or turn to in-house personnel to
     complete the project would likely have further increased cost and schedule
     problems.

     CBP Comment: OIG’s finding that CBP did not complete key documentation
     required for the IAA, including the IGCE, the Analysis of Alternatives, and the
     Acquisition Plan, is inaccurate. OIG had access to the complete ATC IAA file,
     which included readily available documentation showing senior
     procurement officials’ awareness of the decision to use USACE’s services.
     Although not signed, CBP also developed an Acquisition Plan. CBP also
     complied with the requirement to obtain senior procurement officials’
     approval prior to issuance of the IAA. The approval is dated May 24, 2010.
     f
     Although not signed, the Analysis of Alternatives in the file documents
     support for the decision to use USACE. CBP will continue to emphasize the
     need to ensure IAA documents comply with standard procedures. CBP also
     established IGCEs and provided documentation supporting the cost
     breakdown, which is noted in the IAA Statement of Work.

     OIG Response: CBP was unable to provide OIG with signed and dated
     documentation showing it ensured that its decision to enter into an IAA with
     USACE was thoroughly analyzed and the results reviewed and approved by
     senior CBP procurement officials prior to entering into the agreement. As a
     result, CBP was unable to demonstrate its May 2010 decision to use USACE
     was in CBP’s and the Government’s best interest.

     CBP Comment: OIG contends that none of the five buildings to be
     constructed under the ATC IAA was completed within planned cost,
     schedule, and performance requirements; and three of the five buildings
     were completed about 10 months after the target completion date. CBP


www.oig.dhs.gov                          13                                    OIG-14-47

                     OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


     concedes there are schedule delays, but objects to OIG’s assertion these
     delays were the result of a lack of oversight.

     There was a significant delay in completing the ATC. The original contract
     completion date was January 2012; the final negotiated completion date
     was November 30, 2012. The two main drivers to the schedule delay were
     (1) weather delays and unforeseen site conditions and (2) design error and
     questions about design specifications. There were numerous challenges
     with design, specifications, and code requirements for three of the facilities.
     To mitigate these and to proceed with construction, FM&E had a senior
     architect help correct the errors, but the architect was not available until
     late in the project.

     OIG Response: We stand by our statement in the report that that the ATC
     project did not meet planned cost, schedule, and performance
     requirements.

     CBP concurred with our three recommendations. CBP’s responses to the
     recommendations and OIG analysis follow.

     Recommendation #1:

     Implement policies, procedures, and internal controls to increase management
     oversight and to ensure agency compliance with all statutory, regulatory,
     departmental, and Component requirements governing the development,
     review, execution, and use of Interagency Agreements.

     CBP Response: CBP concurred with recommendation #1. According to CBP, it has
     issued additional policy and guidance on the use of IAAs. CBP’s Office of the
     Chief Procurement Officer has also reportedly issued an updated Interagencyf
     GuidefandfAcquisitionfAlertf(13-19), to provide additional policy on the use of
     IAAs, including interagency acquisitions, intra-agency acquisitions, and
     intergovernmental financial transactions. CBP also agreed to: (1) develop
     additional internal controls; (2) develop additional IAA training for its Office of
     Administration staff; (3) revise CBPfDirectivef5320-028D; and (4) conduct an
     annual review of all IAAs to ensure Component compliance with all IAA
     requirements.

     OIG Analysis: We concur that the steps CBP is taking and plans to take meet the
     intent of the recommendation. This recommendation will remain open and
     unresolved until we receive and evaluate: (1) the newly developed and


www.oig.dhs.gov                           14                                    OIG-14-47

                     OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


     implemented internal controls; (2) the planned IAA training regime; (3) the
     revised CBPfDirectivef5320-028D; and (4) CBP’s plan for conducting annual IAA
     reviews.

     Recommendation #2:

     Develop and implement policies, processes, and internal controls to ensure CBP
     compliance with all statutory, regulatory, departmental, and Component
     requirements governing the development, review, execution, and use of
     Reimbursable Work Authorizations.

     CBP Response: CBP concurred with recommendation #2. According to CBP, it has
     developed interim guidance and controls to ensure compliance with all
     statutory, regulatory, departmental, and Component requirements governing
     the use of RWAs. CBP also agreed to update CBPfDirectivef5320-028D on the use
     of RWAs and to conduct quarterly reviews of RWA obligations to validate their
     compliance with Component guidance.

     OIG Analysis: We concur that the steps that CBP is taking, and plans to take,
     meet the intent of the recommendation. This recommendation will remain open
     and unresolved until we have reviewed and evaluated: (1) the interim guidance
     and controls governing the issuance of RWAs; (2) the planned revisions to CBPf
     Directivef5320-028D, and (3) CBP’s plan to conduct quarterly reviews of RWA
     obligations.

     Recommendation #3:

     Develop and implement a plan to bring all outstanding Economy Act
     Reimbursable Work Authorizations into compliance with all statutory,
     regulatory, departmental, and Component requirements. The plan should
     include a detailed description of the actions to be taken; timelines, milestones,
     and progress reporting requirements; the identity of entities responsible for
     implementation; and any short and long-term funding requirements.

     CBP Response: CBP concurred with recommendation #3. In early 2013, based on
     OIG’s preliminary findings, FM&E reviewed all open obligations made to USACE
     and developed a plan to cover all RWAs associated with open requirements. In
     September 2013, the first seven IAAs addressing some of the existing RWAs were
     awarded. CBP is developing IAAs associated with RWAs for the remaining open
     projects; it anticipates completing these by the end of FY 2014. Some of the
     RWAs OIG identified covered completed requirements. Any remaining unexpired



www.oig.dhs.gov                          15                                    OIG-14-47

                     OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


     funds from these RWAs will be de-obligated and will be conveyed to new
     projects through IAAs.

     From this point forward, CBP will use RWAs solely to capture Component costs
     for GSA building-related services that cannot be separated readily from standard
     operating costs. IAAs will be used for all other assisted acquisitions. To ensure
     compliance, FM&E has developed new policy detailing the requirements for
     interagency acquisitions, including appropriate documentation and approvals.
     FM&E will also hire an internal auditor to ensure compliance with IAA processes
     and policies. Finally, CBP will begin training in December 2013, starting with its
     Office of Border Patrol facilities and Tactical Infrastructure Program
     Management Office. In FY 2014, training will be expanded to the remaining
     project management oversight offices to ensure all staff members understand
     the IAA process, the associated requirements, and roles and responsibilities for
     developing and awarding IAAs. The estimated completion date is September 30,
     2014.

     OIG Analysis: We concur that the steps that CBP is taking, and plans to take,
     meet the intent of the recommendation. This recommendation will remain open
     and unresolved until we have obtained and reviewed the new FM&E policy
     detailing the requirements for interagency acquisitions, including appropriate
     documentation and approvals.




www.oig.dhs.gov                          16                                   OIG-14-47

                       OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The DHS Office of Inspector General (OIG) was established by the HomelandfSecurityfActf
off2002 (Public Law 107-296) by amendment to the InspectorfGeneralfActfoff1978. This
is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the
Department.

The objective of our review was to determine whether CBP provided effective oversight
and managed the ATC acquisition in accordance with Federal, departmental, and
Component requirements. Specifically, we determined whether CBP provided effective
oversight and managed Phase IV of the ATC acquisition in accordance with Federal,
departmental, and Component requirements.

We interviewed key CBP and USACE officials to discuss issues arising from our field work
and obtained and reviewed key documentation that included IAAs, Memoranda of
Agreement between CBP and USACE, RWAs, relevant CBP and DHS policies and
procedures, and CBP payment supporting documentation. We selected and reviewed 92
percent ($20 of $21.8 million) of the expenditures incurred for the IAAs and 100 percent
of the approximately $100,000 of the expenditures incurred for the RWAs. We traced
the amounts paid to supporting documentation. We conducted this work at the
following locations:

    •	 Harpers Ferry, West Virginia, where we interviewed CBP officials and examined
       construction;
    •	 The CBP Financial Management Division and National Finance Center,
       Indianapolis, Indiana, where we interviewed CBP officials, reviewed the CBP
       accounting procedures and financial payment process, and reviewed financial
       data from CBP’s financial system;
    •	 Fort Worth, Texas, where we interviewed USACE officials and reviewed CBP
       payment supporting documentation;
    •	 Euless, Texas, where we interviewed CBP officials and reviewed the financial
       payment process; and
    •	 Washington, DC, CBP Headquarters, where we interviewed CBP officials to
       discuss issues arising from our audit.

We conducted this performance audit between December 2012 and July 2013 pursuant
to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our


 www.oig.dhs.gov                          17                           	       OIG-14-47

                      OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


findings and conclusions based upon our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objectives.




 www.oig.dhs.gov                          18                                  OIG-14-47

            g         '    OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


Appendix B
Management Comments to the Draft Report
                                                                                  U.S. Depart:Jnent of Homeland Security
                                                                                  Washing ton , DC 20229

                                                                                  U.S. Customs and
                                                                                  Border Protection




         December 12, 2013




         Charles K. Edwards
         Deputy Inspector General
         Department of Homeland Security
         245 Murray Urive, SW, tluilding 4 10
         Washington, DC 20528

          Rc:   Draft Report, "U.S. Customs and Border Protection's Advanced T raining Center
                Acquisition" (OIG Project No. 13-11 6-AUD-C BP)

          Dear Mr. Edwards:

         Thank you for the opportunity to review and comment on this draft report. U.S. C ustoms and Border
         Protection (CBP) appreciate::; the Department of Homela nd Security (DHS) Office oflnspector
         Genera l' s (OIU' s) work in planning and conducting its review a nd issuing this report.

         T he OIG D raft Report identifies several challenges the OIG believes CBP has faced throughout the
         Advance T raining Center (ATC) acquisition process and with regards to the general use of
         Re imbursable Work Authorizations (R WA) by CBP. C BP concurs with OlU 's recommendations
         and as such, has proactively begun taking the necessary actions to address each of the three
         recommendations. However, the draft report also contains inaccuracies, omits key information, and
         is not appropriate ly contextua lized. COP offers the following additional information to clarify some
         of the details contained in the report.

          I Jse of a Service Provider

         The O IG 's draft report states CBP did not "adequately justify its decision to use an Economy Act
         service provider rather than in-house CBP personnel, including contractor staff, to manage the ATC
         acquisition." CBP disagrees with this stateme nt. Based on the initia l analysis performed in the
         course of awarding the Interagency Agreements (IAA) for ATC execution as well as subsequent
         analysis performed when responsibility for internal oversight of the project was reassigned, CBP
         bel ieves it did adequa te ly j ustify its decis io n to use an Economy Act service provider.

         initial Procurement Analysis

         During the course of the aud it, the O IG acq uired access to the complete fi le for both A TC IAAs.
         The fil e included the Determinations and Findings (D&F) and Analysis of Alternatives (AA)
         documents, which were completed in the course of the IAA 's development as require d fo r the




 www.oig.dhs.gov                                         19                                                     OIG-14-47

                          OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security




         execution of an lAA under the Economy Act. The documents provide evidence CBP completed
         an appropriate level of analysis in making its determination that the use of the U.S. Army Corps
         of Engineers (USACE) as CBP's executing partner for the ATC project was in the best interest
         of the government.

         Furthermore, the contract file also contained documentation of senior-level CBP procurement
         offici als' awareness of the decision to support ATC construction requirements by use of USACE
         services.

         Program Office Analysis

         ln June 2012, Facilities Management & Engineering (FM&E) conducted a second analysis to
         determine which type of construction execution would be appropriate for the ATC project. The
         Program Management Office (PMO) considered the following options: I) continue ATC
         execution by USACE; 2) select an alternate Federal Service Provider; or 3) complete
         construction using CBP in-house resources.

         On June 28,2012, FM&E briefed OA' s Assistant Commissioner (AC) on the three possible
         alternatives. The briefing considered both the opportunities and risks associated with each option
         as summarized below. The PMO concluded the execution of a plan requiring CBP to hire
         additional staff for Project Management and Procurement during an organization-wide hiring
         pause would be both challenging and very high risk. Ultimately, FM&E recommended
         execution via USACE continue. The OA AC concurred with this recommendation.

         Summary of Program Office Analysis

         Option 1: Continue ATC Execution by the USACE (Recommended and Selected)

         USACE had a successful track record of meeting major construction project schedules for CBP
         and the Department of Homeland Security's (DHS) nighest profile proj ects including the
         Pedestrian Fence (PF) 225 and Vehicle Fence (VF) 300 and Expedited Faci lities Initiative (EFI)
         (construction of 16 facilities). The USACE brings an experienced team from these
         aforementioned projects. Additionally, continuing to execute through USACE would reduce the
         risk of further protest due to the implementation of the Department of Justice's (DOJ)
         recommendation to seat a new Source Selection and Evaluation Board (SSEB) to address issues
         raised in prior protests. Further, many of the necessary procurement actions requi red to complete
         the DCC portion of the project had already been executed by USACE, which positively impacts
         proj ect delivery date. Finally, USACE had also engaged the Architect, Design and Engineering
         firm to complete a detailed constructability review to ensure the same challenges which arose
         during the construction of other ATC facilities would not arise during the DCC construction.

         Risks considered during this analysis included the possibility of protest (though reduced relative
         to other service providers) and the associated delay in project execution. Additionally, having
         the Designer of Record (DOR) contracted to CBP rather than to US ACE continued to cause
         concern. To mitigate this concern, CBP assigned a full-tim e architect to ensure construction
         contractor and DOR concerns were appropriately communicated and addressed timely so as not
         to adversely impact project delivery. This resource was assigned during the completion of the
                                                                                                          2




www.oig.dhs.gov                                        20                                                     OIG-14-47

                          OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security




        Shower/Locker Room (SLRF) and Welcome Center (WCSCC) and Dining Facility (DFAC)
        projects, and wouJd continue with the DCC project. Finally, though the USACE' s track record
        for project execution on CBP' s behalf has been strong, there is always the risk of unsatisfactory
        performance by the contractor, making CBP oversight and support of the service provider that
        much more critical.

        Option 2: Select an alternate Federal Service Provider.

        Continuing to develop relationships across the Federal government would have been a boon fo r
        CBP, particularly within the DHS family. To that end, the FM&E considered both the U.S.
        Coast Guard and Naval Facilities (NAYFAC) as examples of other Federal service providers.

        However, the requirement for additional resources required to support CBP Procurement in the
        execution of new lAAs, compounded by the rework required for the request for proposal (RFP),
        solicitation, SSEB, and award requirements ultimately factored more heavily into CBP's
        decision to stay with USACE than did CBP's desire to establish new service provider
        relationships. Additionally, Option 2 did not solve the problem of the DOR being contracted
        directly to CBP. That problem would have persisted regardless of whether a different Federal
        Service provider was used to complete the work. Finally, the more general concern of possible
        unsatisfactory performance sighted under Option 1 would also be present in Option 2. However,
        the existing relationship and understanding of each other's business processes and oversight
        approach, which exists with USACE, would not have been present with another service provider.

        Option 3: Complete construction using CBP In-House Resources

        FM&E has the desire to grow its organic capability for construction management and, where
        appropriate, eliminate its reliance on USACE and other third-party service providers. Yet CBP' s
        nearly two-year long hiring pause has played an adverse role in its ability to perform work in-
        house. Under the hiring pause, CBP wouJd have been unable to hire the right skills sets and,
        even if individuals with these skill sets were onboard, CBP would be unable to backfill in the
        event the individual separated, placing the ATC project at a high risk for project failure. In terms
        of resources to support a more than $50 million project, significant additional funds would have
        been required to supplement CBP Procurement labor and project engineers, and a heavy reliance
        on contract support would be required to round out Program Management Office staff. Further,
        ifCBP were to bring the execution of the ATC project in-house, some re-writing of the RFP,
        solicitation, SSEB and award requirements would be required, resulting in both scheduJe and
        cost impacts. The risk of formal protest is greater than allowing USACE to execute this project.
        While FM&E's desire to grow its organic capacity remains, it was determined that the ATC is
        the wrong project to serve as a test bed.

        Management and Oversight of tbe Service Provider

        IAA Documentation

        Pages 3 and 4 of the draft report states CBP failed to complete key documentation required for
        the $55.7 million lAA used to "oversee and manage the execution of the ATC acquisition."

                                                                                                             3




www.oig.dhs.gov                                        21                                                        OIG-14-47

                           OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security




        These documents include the 1ndependent Government Cost Estimate (lGCE), the AA and the
        Acquisition Plan (AP). This statement is inaccurate.

       The OIG acquired access to the complete ATC IAA fil e. Within that fil e, contract
       documentation which reflected senior procurement officials' awareness of the decision to
       support ATC construction requirements by use of USACE services was readily available. An
       AP document was also developed to support CBP's position to use the USACE although it
       wasn't signed. Additionally, CBP complied with the Office of Federal Procurement Policy's
       requirement to obtain CBP senior procurement officials' approval prior to issuance of an IAA.
       The approval is dated May 24, 20 I 0.

       The AA in the file provides documentation that supports the decision to use USACE as a service
       provider. Although the AA is not signed, CBP Procurement will continue to emphasize the need
       to ensure lAA documents are in compliance with standard procedures.

       Independent IGCEs were established within the CBP program office. IGCE estimates were
       provided and documentation supporting the cost breakdown is noted in the lAA statement of
       work.

       Oversight Practices

       CBP opposes the OIG's contention that the lack of specific documentation associated with the
       ATC 's IAAs precluded CBP from carrying out appropriate management and oversight of the
       ATC project. FM&E believes that it has sufficient processes and procedures in place to ensure
       appropriate management and oversight, not only of the ATC project but of all construction
       projects it executes. IAAs are not the appropriate tool to manage a project. The appropriate tools
       are the contractor schedule, cost, FM&E's Project Requirements Document (PRD) and the
       Facility and Infrastructure Tracking Tool (FITT) system which were and are used for the ATC
       projects.

       FM&E develops a PRD which establishes the scope, cost (lGCE) and schedule for any executed
       project. The PRD also identifies potential project risks as well as all real estate and
       environmental actions. USACE and CBP project managers work in concert to develop each
       project's labor cost estimate, whkh details the level of effort by the USACE to support the
       project. This estimate includes costs and hours by individual and skillset (e.g. John Doe,
       Architect) by month. Finally, the PRD identifies the roles and responsibilities of staff that
       support the project. The PRD establishes the initial project basel.ine until contract award, at
       which time the project baseline is updated to reflect the baseline in the awarded contract.

      Once complete, the infonnation in the PRO is used to populate the PMO's web-based project
      management and communication tool, called the Facilities and Infrastructure Tracking Tool
      (FITT). The FITT system tracks projects from initial development through closeout and is used
      by the project teams to track schedule, cost, and risk information. Standard PMO process is to
      enter all projects into FITT and review each project on a minimum of a bi-weekly basis. More
      frequent reviews may occur, depending on the needs of the project for management review,
      oversight, and/or intervention. These reviews, dubbed " FITT Calls," are staffed by the PMO's
      functional Subject Matter Experts (SMEs), the PMO's business partner and US ACE. Project

                                                                                                       4




www.oig.dhs.gov                                         22                                                  OIG-14-47

                          OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




        Managers brief their project status utilizing FITT, raising any issues (i.e. scope, schedule and
        cost (including USACE)) which may require management input. Proj ect change management is
        also managed through FITT via a workflow of approval levels, including real estate,
        environmental, design, budget, business partner, and management. All final documents are
        uploaded to FITT, including final designs and as-built drawings.

        Schedule Impacts to Project Delivery

        Page 5 of the OIG report contends ''None of the five buildings to be constructed under the ATC
        TAA was completed within planned cost, schedule and performance requirements. Three of the
        five buildings were completed about I0 months after the target completion date ... ". CBP
        concedes there were schedule delays in project delivery. However, we strongly object to the
        OIG's assertion these delays were the result of lack of oversight.

        There was a significant delay in the completion of the ATC project. The original contract
        completion date was January 2012. The final negotiated contract completion date was November
        30, 2012. There are two main drivers to the schedule delay. The first is weather delays and
        unforeseen site conditions. The second, more significant factor leading to over 272 days of delay
        was design error and questions regarding the specifications from the DOR. The DOR had
        numerous challenges with design, specification and code requirements for the SLRF, DFAC and
        WCSCC. To mitigate these performance challenges, FM&E had to commit a senior Architect to
        work with and help the DOR correct the design errors, including completing preliminary drafting
        of design corrections so the construction contractor could proceed with constructing the
        buildings. This architectural resource was not available to FM&E until late into the project.

        Appropriateness of RW As versus the Authority to Sign RWAs

        CBP agrees with the OIG that IAAs are the appropriate method to fund the USACE for assisted
        acquisitions when utilizing the authority of the Economy Act. To address the OIG's finding,
        CBP has planned and implemented corrective action plans to use IAAs, rather than RW As, to
        fund actions conducted under the authority of the Economy Act. CBP notes, however, that there
        are some in stances, namely those involving transactions with GSA at space/facil ities controlled
        by GSA, where it is proper to use R WAs as the vehicle for transfer of fund s.

        The draft report contained three recommendations directed to CBP's Deputy Commissioner.
        CBP concurs with all three recommendations. Specifically, OIG recommended CBP:

        Recommendation 1: Implement policies, procedures, and internal controls to increase
        management oversight and to ensure agency compliance with all statutory, regulatory,
        departmental, and component requirements governing the development, review, execution, and
        use of Interagency Agreements.

        Response: Concur. New Departmental policy and guidance regarding the use of lAAs was
        provided in July 2013. The Office of the Chief Procurement Officer issued an updated
        Interagency Acquisition Guide and Acquisition Alert 13-19, which provided policy related to
        IAAs, including inter-agency acquisitions, intra-agency acquisitions, and intra-governmental
        financial transactions (IFT) which do not result in an assisted acquisition. With the exception of

                                                                                                            5




www.oig.dhs.gov                                        23                                                       OIG-14-47

                         OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




        the 1FT portion of the policy, CBP is operating in accordance with the DI-IS policy. The IFT
        process provides for "financial transaction" between components in lieu of utilizing the
        respective procurement organizations.

        CBP is working to establish the framework to implement the IFT portion of the policy. Until
        then, CBP continues to execute IAAs as it has in the past. While no additional policy is
        necessary, CBP will develop internal control procedures as appropriate, provide training in FY14
        for CBP' s OA personnel and conduct an annual review of IAAs to ensure compliance with the
        OI-lS policy. After the IFT policy is finalized, CBP will revise the CBP Directive 5320-0280 to
        describe the appropriate use oflAAs.

        Estimated Completion Date (ECD): December 3 1, 2014

        Recommendation 2: Develop and implement policies, processes, and internal controls to ensure
        CBP compliance with all statutory, regulatory, departmental, and component requirements
        governing the development, review, execution, and use of Reimbursable Work Authorizations.

        R esponse: Concur. CBP will undertake the following actions in order to develop and
        implement appropriate guidance and controls to ensure RWAs are used only in compliance with
        statutory, regulatory, departmental, and component requirements.

        CBP wi ll revise the CBP Directive 5320-0280 to describe the appropriate use of a RWA, and
        implement a quarterly review ofRWA obligations to validate they were issued for the purpose as
        defined in CBP Directive 5320-028D.

        CBP has already issued internal guidance to ensure compliance validated through review by
        CBP's Office of Chief Counsel. However, until the CBP Directive 5320-0280 is updated, CBP
        will proceed with current internal guidance procedures for CBP personnel to identifY the
        appropriate use of an R WA, including identifYing all required documentation supporting the
        issuance of an RWA.

        ECD: January 31,2014

        Recommendation 3: Develop and implement a plan to bring all outstanding Economy Act
        Reimbursable Work Authorizations into compliance with aU statutory, regulatory, departmental,
        and component requirements. The plan should include a detailed description of the actions to be
        taken; timelines, milestones, and progress reporting requirements; the identity of entities
        responsible for implementation; and any short- and long-term funding requirements.

        Response: Concur. In order to bring all outstanding RWAs into compliance with statutory,
        regulatory, departmental and component requirements, OA's Procurement and FM&E
        Directorates developed and implemented IAA to cover existing requirements by linking existing
        RWAs to IAAs, including alI required supporting documentation.

        In early 201 3, based on the OIG 's preliminary findings, FM&E reviewed all open obligations
        made to the USACE. From this review, the aforementioned plan to cover all RWAs associated
        with open requirements was developed. In September 201 3, implementation began with the

                                                                                                       6




www.oig.dhs.gov                                       24                                                   OIG-14-47

                          OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




        award of the first seven IAAs to address some of the existing RWAs. IAAs associated with any
        remaining RWAs for open projects are being development and are anticipated for completion by
        the end of fi scal year 20 14. Some of the RWAs identified during the OIG's audit are associated
        with completed requirements. Any remaining unexpired funds from these R WAs will be de-
        obligated and when placed o n new projects will be conveyed to the assisting agency using an
        IAA.

        From this point forward, RWAs will be used solely to capture agency costs for the U.S. General
        Services Administration building-related services which cannot readily be separated from
        standard operating costs. Interagency Agreements will be used for all other works executed as
        assisted acquisitions. To ensure compliance, FM&E has developed new policy detailing the
        requirements for interagency acquisitions including appropriate documentation and approvals.
        An internal auditor is also being hired within FM&E to ensure compliance with IAA processes
        and policies. Finally, training will be launched in December 201 3, beginni ng with FM&E's
        Border Patrol Facilities and Tactical Infrastructure Program Management Office and expanded to
        the remaining PMOs during FY 2014, to ensure all staff understands the IAA process, the
        associated requirements and their individual roles and responsibilities with respect to developing
        and awarding IAAs.

        ECD: September 30, 2014

        Again, thank you for the opportunity to review and comment on this draft report. Technical
        comments were previously provided under separate cover. Please feel free to contact me if you
        have any questions. Alternatively, a member of your staff can contact Jennifer Topps, Audit
        Liaison, Office of Internal Affairs, at (202) 325-7713. We look forward to working with you in
        the future.

                                             Sincerely,



                                             ~~
                                             Assistant Commissioner
                                             Office of Internal Affairs




                                                                                                         7




www.oig.dhs.gov                                       25                                                     OIG-14-47

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Appendix C
Advanced Training Center’s Phases and Development

ATC Phases       Construction/Development                                          Target Completion
One (I)              •    Visitor’s Center
                     •    Shipping and Receiving Building
                     •    Administration Building
                     •    Defensive Tactics Building
                     •    Three Scenario Training Facilities                           Completed
                     •    Armory
                     •    Water Storage Tank/Sanitary System
                          Equipment
                     •    Training Pond and Fence Enclosure
Two (II)             •    Land/Property Acquisition                                    Completed
Three (III)          •    Leadership Academy (Global Borders
                          College)
                     •    Extended Cold Storage
                     •    Heliport                                                     Completed
                     •    Warehouse and Receiving Building
                     •    Firing Range
                     •    Renovations
Four (IV)            •    Dining Hall                                                  Completed
                     •    Shower and Locker Room Facility                              Completed
                     •    Welcome and Security Center                                  Completed
                     •    Contractor Maintenance Facility*                         On Hold (Cancelled)
                     •    Dormitory and Conference Center**                         To be Determined
Source: DHS OIG
  * Building cancelled because of lack of funding.
** Construction postponed indefinitely because of an ongoing contractor protest.




  www.oig.dhs.gov                                 26                                          OIG-14-47

                   OFFICE OF INSPECTOR GENERAL
                     Department of Homeland Security


Appendix D
Reimbursable Work Authorization Example




 www.oig.dhs.gov                  27                   OIG-14-47

                     OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


Appendix E
Major Contributors to This Report
Richard T. Johnson, Director
Paul M. Streit, Audit Manager
Michael J. Brunelle, Auditor-in-Charge
Kathleen G. Hyland, Auditor
G. Scott Crissey, Program Analyst
Kelly Herberger, Communications Analyst
Ralleisha G. Dean, Referencer




 www.oig.dhs.gov                          28                OIG-14-47

                        OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Appendix F
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
CBP Audit Liaison
Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




 www.oig.dhs.gov                              29                        OIG-14-47

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
